                      DISCLAIMER
On July 3, 2012, this redacted report was released
pursuant to a Freedom of Information Act request.




             LIMITED SCOPE REVIEW OF
        SOUTHERN MARYLAND COURTHOUSE
                   ANNEX PROJECT
        REPORT NUMBER A110717/P/R/R11011
                   AUGUST 18, 2011
                                                              FOR OFFICIAL USE ONLY


        GENERAL SERVICES ADMINISTRATION
          OFFICE OF INSPECTOR GENERAL



                             Limited Scope Review of
                   Southern Maryland Courthouse Annex Project
                        Audit Number A110171/P/R/R11011

                                    August 18, 2011




                                          Notice

This report contains information that the Office of Inspector General has determined is
proprietary and predecisional, and distribution is restricted to Agency officials and other
cognizant Federal officials. Persons disclosing this information publicly or to others not
having an official need to know are subject to possible administrative or civil penalties,
or criminal penalties pursuant to the Trade Secrets Act (18 U.S.C. Section 1905).

This report should be safeguarded to prevent improper disclosure at all times. Agency
officials who receive requests to release this report should refer the requestor to the
Office of Inspector General, Office of Counsel – Freedom of Information Officer.


                                                              FOR OFFICIAL USE ONLY
                                                                      FOR OFFICIAL USE ONLY




Date:            August 18, 2011

Reply to         (b) (6)
Attn of:         Audit Manager
                 Real Property Audit Office (JA-R)

Subject:         Limited Scope Review of
                 Southern Maryland Courthouse Annex Project
                 Audit Number A110171/P/R/R11011

To:              Cathleen C. Kronopolus
                 Regional Commissioner
                 National Capital Region, Public Buildings Service (WP)

This is to inform you that, we identified several matters that require your attention during
our review of Solicitation Number GS11P10MKC0050 for architect-engineer (A-E)
services for the design of an annex to the Southern Maryland Courthouse in Greenbelt,
Maryland. The General Services Administration’s (GSA) Public Buildings Service (PBS)
Office of Project Delivery in the National Capital Region issued this Solicitation to
acquire pre-design, design development, construction phase, and post-construction
services for the project. In order to expedite the work, PBS issued a separate letter
contract for the pre-design services (Contract Number GS-11P-11-MK-C-0031) 1 to the
A-E firm selected for the overall design effort. 2 Our review disclosed that:

      •   The use of a letter contract in this case was improper;
      •   The letter contract was awarded prior to a determination of financial
          responsibility; and
      •   If the award proceeds without a reduction in price, all work under the solicitation
          will violate the Brooks Act’s 6 percent limitation on design costs and will exceed
          appropriated funding.




1
 On February 28, 2011, GSA awarded a sole-source contract for pre-design services associated with the
Site Analysis and Preliminary Concepts Phase for the Southern Maryland Courthouse Annex Project.

2
    We have completed a preaward audit of this contractor’s proposal. See Report A110132/P/R/X11068.
                                                   1
                                                                      FOR OFFICIAL USE ONLY
                                                            FOR OFFICIAL USE ONLY


Improper Use of a Letter Contract

PBS’s use of letter contract GS-11P-11-MK-C-0031 for the pre-design services at the
Southern Maryland Courthouse Annex project was inappropriate because:

      1. Award Was Made as a Sole-Source Procurement

      The letter contract was not procured competitively, as required by Federal
      Acquisition Regulation (FAR) 16.603-3(b). PBS considered the letter contract to
      be a competitive procurement because the pre-design services included in the
      letter contract were included in the scope of the original competitive procurement
      for the project’s overall design effort. However, PBS awarded the letter contract
      to the A-E firm that was selected for the project’s overall design effort, without
      competition specific to the letter contract. A solicitation was not issued and a
      competition was not held for the letter contract procurement.

      2. Inadequate Justification for Use of a Letter Contract

      PBS’s justification for using a letter contract did not meet FAR requirements.
      FAR 16.603-3 states that a letter contract may be used only after the head of the
      contracting activity or a designee determines in writing that no other contract is
      suitable. Per FAR 16.603-2(a), a letter contract may be used when: (1) the
      Government’s interests demand that the contractor be given a binding
      commitment so that work can start immediately and (2) negotiating a definitive
      contract is not possible in sufficient time to meet the requirement. PBS’s
      justification for awarding a letter contract did not address either of these
      requirements.

      On February 25, 2011, the Director of Contracts Division, Office of Project
      Delivery signed a determination stating:

            The SoMDCT Annex Project is a politically sensitive project with
            strong congressional interests in which GSA’s upper level
            management is involved. Due to the tight project schedule, per
            FAR 16.603-1, I hereby determine that a letter contract is the only
            viable contract vehicle that is suitable for the Pre-design Services
            for the Southern Maryland Courthouse Annex Project.

      This determination provides no explanation as to why (1) the work needed to
      start immediately or (2) it was not possible to negotiate a definitive contract in
      sufficient time to meet the requirement.

      Additionally, the determination was not made at the appropriate level. As stated
      above, the head of the contracting activity or a designee must make the
      determination. The letter contract in question was approved by the Director of
      PBS’s Contracts Division, to whom that authority has not been delegated.

                                          2
                                                            FOR OFFICIAL USE ONLY
                                                                         FOR OFFICIAL USE ONLY



        3. Omission of FAR 52.216-23

        Letter contracts should incorporate FAR 52.216-23, the Execution and
        Commencement of Work clause, in accordance with FAR 16.603-4(b)(1). This
        letter contract failed to include this required clause.

Letter Contract Awarded Prior to Financial Responsibility Determination

PBS violated FAR Part 9 by awarding the letter contract before a determination of
financial responsibility was completed. FAR 9.103(b) provides, "No purchase or award
shall be made unless the contracting officer makes an affirmative determination of
responsibility." According to FAR 9.104-1(a), responsibility means the potential
contractor possesses adequate financial resources to perform the contract, or the ability
to obtain them.

In attempting to expedite work, PBS did not complete a responsibility determination
prior to the award of the letter contract. (b) (5)




Potential for Brooks Act and Funding Violations

If the A-E design services fee is not reduced, PBS may face a violation of the Brooks
Act. The Brooks Act limits the design cost for a project to 6 percent of the Estimated
Cost of Construction at Award (ECCA). The ECCA for this project is $101,650,600;
therefore, the fee limitation would be approximately $6.1 million. According to the most
recent price proposal submitted by the selected A-E firm, the A-E services will cost the
Government $14,473,437. In our analysis, we reduced the fee by deducting certain
costs that are typically excluded from the 6 percent fee limitation 3 and conservatively
estimate that $9,159,320 (9 percent of the ECCA) of the A-E fee proposed would be for
design costs.

Additionally, the current proposal exceeds the project’s funding. The contractor
proposed $14.5 million for the project’s overall A-E services; however, the appropriated
funding for the project is only $10 million.



3
 There are design costs such as travel costs, surveying, and site selection that are excluded from the 6
percent statutory fee limitation.

                                                    3
                                                                         FOR OFFICIAL USE ONLY
                                                                 FOR OFFICIAL USE ONLY


    Conclusion

    We conclude that PBS violated certain provisions of the FAR and PBS policy during the
    award of the letter contract. PBS is also advised that, as proposed, the price for A-E
    services will lead to a violation of the Brooks Act and exceed appropriated funding.
    Given the issues identified in this report, PBS should reassess its approach to this
    project as problems identified at this stage of the project may be exacerbated in future
    stages.

    Recommendations

    We recommend that the Regional Commissioner, National Capital Region, Public
    Buildings Service:

          1) Obtain a full legal review of the procurements for the Southern Maryland
             Courthouse Annex Project.
          2) Reassess the current project approach to address actual and potential
             violations of the FAR and PBS policy as identified in this report and resulting
             from any legal review.

    Management Comments

    The Regional Commissioner’s comments are included in their entirety in Appendix A.
    The Regional Commissioner agreed with the audit report and will implement its
    recommendations.

    We appreciate the support that was provided throughout this review. If you have any
    questions about this report, please contact me at (b) (6)     .


(b) (6)




    Audit Manager
    Real Property Audit Office (JA-R)




                                               4
                                                                 FOR OFFICIAL USE ONLY
                                               FOR OFFICIAL USE ONLY


                       Limited Scope Review of
             Southern Maryland Courthouse Annex Project
                  Audit Number A110171/P/R/R11011

                        Management Comments




                    (b) (6)




   (b) (6)         (b) (6)                                (b) (6)
(b) (6)

     (b) (6)




                                A-1
                                               FOR OFFICIAL USE ONLY
                                                             FOR OFFICIAL USE ONLY


                             Limited Scope Review of
                   Southern Maryland Courthouse Annex Project
                        Audit Number A110171/P/R/R11011

                  Background, Objective, Scope, and Methodology

Background

In February 2011, the General Services Administration’s Public Buildings Service (PBS)
Office of Project Delivery in the National Capital Region requested a preaward audit of a
proposal for architect-engineer (A-E) services under Solicitation Number
GS11P10MKC0050. The solicitation called for A-E services for the design of an annex
to the existing Southern Maryland Courthouse in Greenbelt, Maryland. During the
course of the preaward audit of the contractor’s A-E price proposal, it came to our
attention that PBS awarded a letter contract to the contractor for select work included in
the A-E solicitation under Contract Number GS-11P-11-MK-C-0031. As a result, we
initiated a limited scope review of the Southern Maryland Courthouse Annex Project to
identify any issues related to this project.

Objective

Our objective was to identify issues with the Southern Maryland Courthouse Annex
Project.

Scope

We performed the fieldwork for this report throughout June 2011.

Methodology

To accomplish the objective we reviewed the contract file and other pertinent project
documents, met with project staff, and reviewed applicable guidance and regulations.

We conducted this performance audit in accordance with generally accepted
government auditing standards except as noted below. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

This review is limited in scope to issues discovered while reviewing the Southern
Maryland Courthouse Annex Project.




                                           B-1
                                                             FOR OFFICIAL USE ONLY
                                                             FOR OFFICIAL USE ONLY


                             Limited Scope Review of
                   Southern Maryland Courthouse Annex Project
                        Audit Number A110171/P/R/R11011

                                   Report Distribution

Regional Commissioner, National Capital Region, Public Buildings Service (WP)

Regional Administrator, National Capital Region (WA)

Public Buildings Service Commissioner (P)

Director, Internal Control and Audit Division (BEI)

Assistant Inspector General for Auditing (JA)

Deputy Assistant Inspector General for Investigations (JI)




                                           C-1
                                                             FOR OFFICIAL USE ONLY
